    DEPARTMENT OF HOMELAND SECURITY

            Office of Inspector General
    <




                     Letter Report: 


            Review of DHS’ Financial Systems 

                 Consolidation Project 





OIG-08-47                               May 2008
                                                                             Office of Inspector General

                                                                             U.S. Department of Homeland Security
                                                                             Washington, DC 20528




                                          May 9, 2008


MEMORANDUM FOR:              David Norquist
                             Chief Financial Officer


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Review of DHS’ Financial Systems Consolidation Project, OIG-08-47

We evaluated the Department of Homeland Security’s (DHS) financial systems consolidation
strategy. Specifically, our objective was to determine the progress DHS is making in developing
and implementing its financial systems consolidation plan.

The Resource Management Transformation Office (RMTO) has developed a strategy to
consolidate key component financial systems to either the Systems Applications and Products
(SAP) or Oracle Financial platforms. In addition, the RMTO has developed project plans and
other supporting documentation for this financial systems consolidation project. These items
include a migration timeline, a draft concept of operations, a systems development lifecycle
document, and an internal alternatives analysis.

Generally, the RMTO’s evaluation provided adequate support for its decision to use two financial
systems solutions. However, the RMTO has not conducted a complete analysis of possible service
providers outside of DHS as required by Office of Management and Budget (OMB) guidance, and
DHS does not have a documented waiver from OMB indicating that they do not have to comply
with this guidance. Additionally, during the fiscal year 2007 financial statement audit, the external
auditors outlined problems with the change control process in the Oracle platform. These change
control problems could cause unsupported adjustments to not only the United States Coast Guard
(Coast Guard) and Transportation Security Administration (TSA) financial data, but also to the
data of other DHS components that will be migrated to the new financial system. Finally, the
external auditors said that these change control issues could potentially lead to a scope limitation
for the DHS financial statement audit.

Our report contains 3 recommendations aimed at improving the overall effectiveness of DHS’
strategy to consolidate financial systems within the department. These recommendations advise
that the RMTO conduct a full analysis of possible service providers in the federal government,
including the OMB centers of excellence, to determine if any of these systems can meet DHS’
financial management needs. In addition, the RMTO needs to improve its change control
                   Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                    1
    processes by identifying and correcting scripts being used by the Coast Guard and TSA. Your
    office concurred with all recommendations. Within 90 days of the date of this memorandum,
    please provide our office with additional information about the activities underway or planned by
    the RMTO to address our recommendations, including responsible parties, key milestones, and
    other supporting information.

    Consistent with our responsibility under the Inspector General Act, we are providing copies of our
    report to appropriate congressional committees with oversight and appropriation responsibility
    over the DHS. In addition, we will post a copy of the report on our website for public
    dissemination.

    Should you have any questions, please call me, or your staff may contact Frank Deffer, Assistant
    Inspector General for IT Audits, at (202) 254-4100.

    Financial Systems Consolidation Strategy

    The DHS Chief Financial Officer (CFO) has developed a strategy to consolidate the department’s
    financial systems down to two platforms—SAP and Oracle Financials. This effort is being called
    the Transformation and Systems Consolidation (TASC) program. According to the RMTO, by
    deciding to consolidate to these two financial systems, the CFO chose the decision of least risk,
    which is to move to an alternative already in place and one with which some of the components are
    already familiar. SAP and Oracle Financials are also two of the most widely used financial
    systems in the private and public sectors. In addition, these two financial platforms have been
    approved by the DHS Chief Information Officer (CIO) and meet the requirements of the
    department’s enterprise architecture. This is outlined in Homeland Security Management
    Directive number 0007.1, which states that each IT investment must align with the overall DHS
    enterprise architecture. 1 By selecting a system that meets the CIO’s guidelines, approval by the
    CIO’s enterprise architecture committee is not required.

    By consolidating down to these two platforms, the use of other department-wide financial systems
    will be minimized by the year 2011—42% of components transitioned by 2009 and 96% of
    components transitioned by 2011. Figure 1 represents the consolidation of DHS budget authority
    from eight financial systems to four by 2011. The major financial systems included in Figure 1 are
    as follows: Integrated Financial Management Information System (IFMIS), Oracle Federal
    Financial system (OFF), SAP, Federal Financial Management System (FFMS), Momentum, and
    the Department of Justice (DOJ). Eventually, the department will move from the two solutions to
    one final platform after the year 2011.




1
 Homeland Security Management Directives System 0007.1, Information Technology Integration and
Management, March 15, 2007.
                       Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                        2
           Figure 1: DHS Budget Authority
    The migration plan created by the RMTO and approved by Congress as part of the fiscal years
    2007-2008 expenditure plan is to incorporate the smaller components onto the Oracle platform and
    develop a best practices methodology to be used for the migration of larger components in the later
    years of the program. Once the Oracle baseline is in place, the solutions architect2 will re-host the
    TSA and the Domestic Nuclear Detection Office to the DHS datacenter location in Stennis,
    Mississippi. 3 Following this move, the solutions architect will migrate the Office of Health
    Affairs and the Science and Technology directorates to the new baseline. Shown in Table 1 are the
    components and their current financial management systems. By the end of FY 2011, most of
    these components, with the exception of the Federal Law Enforcement Training Center and the
    U.S. Secret Service, will be moving to one of the two platforms.

                   DHS Component                                     Current Financial System
     Federal Law Enforcement Training Center                  Momentum
     U.S. Customs and Border Protection                       Systems Applications and Products in
                                                              Data Processing (SAP)
     U.S. Coast Guard                                         Core Accounting System (Oracle-based)
     Transportation Security Administration                   Core Accounting System (Oracle-based)
     Domestic Nuclear Detection Office                        Core Accounting System (Oracle-based)
     Federal Emergency Management Agency                      Integrated Financial Management
                                                              Information System
     U.S. Secret Service                                      Core Accounting System (Oracle-based)
     Immigration and Customs Enforcement                      Federal Financial Management System
     Citizenship and Immigration Service                      Federal Financial Management System
     DHS Headquarters                                         Federal Financial Management System
         • Office of Health Affairs
         • Science and Technology Directorate
         • Office of the Chief Information Officer
         • Office of the Chief Financial Officer
         • Office of the Chief Procurement Officer
         • National Protection and Programs
         • Intelligence and Analysis
         • Operations Coordination
Table 1 – DHS Components and Financial Systems

2
    The solutions architect is the company that wins the contract award for the TASC project.
3
 Currently the U.S. Coast Guard is the service provider for both the TSA and the Domestic Nuclear Detection
Office.
                       Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                        3
    Throughout this process, the focus of the RMTO’s work has been on the Oracle baseline. For
    example, the request for proposals issued via the Enterprise Acquisition Gateway and Leading
    Edge solution states that there are two approved shared baselines for the financial systems
    consolidation; however, all of the tasks outlined in the RMTO documentation focus on the
    activities that pertain to the Oracle baseline. In addition, RMTO officials said that the only
    component that is considering moving to the SAP baseline is the Federal Emergency Management
    Agency (FEMA). However, additional evaluation needs to be completed by the RMTO and the
    solutions architect prior to the final decision. Moreover, the RMTO has created some of the
    documentation critical to DHS’ success in implementing an integrated financial system—all for
    the Oracle platform. These documents include a concept of operations, a draft program
    management plan, a systems development lifecycle document, a risk management plan, and a
    migration timeline. The RMTO is also currently working on a governance plan and charter, a
    change control configuration document, and a helpdesk support document.

    Evaluation of Operational Solutions Not Complete

    DHS did not perform a complete analysis of all potential systems and service providers as part of
    its process to select a financial systems solution. As a result, DHS may not have had sufficient
    information to support its decision to exclude obtaining financial system operational and hosting
    support from other sources.

    OMB Circular A-130 directs that federal agencies must ensure that decisions to improve existing
    information systems or develop new information systems are initiated only when no alternative
    private sector or governmental source can efficiently meet the need.4 Further, in 2005, OMB
    issued additional guidance on the Federal Management Line of Business Initiative.5 The Financial
    Management Line of Business Initiative’s overall vision is to improve the cost, quality, and
    performance of financial management systems by leveraging shared service solutions (i.e. Centers
    of Excellence), and implementing other government-wide reforms that foster efficiencies in federal
    financial operations. As required by this guidance, federal agencies must have competitive options
    available for financial systems, including consideration of shared service alternatives and existing
    federal financial systems, when deciding on a new agency financial system. As a part of this
    guidance, OMB discussed requirements for transparency and standardization among the Financial
    Management Line of Business Initiative and steps federal agencies should undertake in order to
    migrate to a center of excellence.

    Contrary to OMB guidance, the RMTO did not consider potential shared service providers or any
    other external agency as part of the alternatives analysis for the TASC program. Instead, the
    RMTO excluded the centers of excellence from consideration, without conducting a full analysis
    of their respective capabilities. An RMTO official said the department had obtained a verbal
    waiver from OMB, allowing DHS to exclude the centers of excellence from consideration, and to
    proceed with RMTO’s strategy for consolidating systems using the Oracle solution. OMB
    officials said that this waiver, while not documented, represents OMB’s official position on the

4
  Office of Management and Budget Circular A-130, Management of Federal Information Resources, 

November 28, 2000-Revision. 

5
  Office of Management and Budget, Update on the Financial Management Line of Business and the 

Financial Systems Integration Office, Memorandum, December 16, 2005.

                       Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                        4
    matter. However, section 10.b of OMB Circular A-130 calls for written waiver requests, and
    requires that the agency publish the request in the Federal Register.

    After obtaining the waiver from OMB, the RMTO began to look internally to leverage current
    DHS investments. In determining which internal system solution was right for DHS, the RMTO
    conducted multiple analyses of current DHS component financial systems. The first analysis
    outlined DHS’ financial management vision, the current state of DHS’ financial management
    systems, the consolidation approach, and recommendations on the way forward.

    RMTO Analysis of Alternatives

    As part of this analysis, the RMTO identified four alternatives within the department as possible
    solutions for the financial systems consolidation effort. These four alternatives discussed were to:
    (1) build a new Department-level financial management system to supersede the component-level
    systems, (2) consolidate one or more existing component systems, (3) conduct a comprehensive
    upgrade to existing systems to address corrective action plan weaknesses, and (4) maintain status
    quo. Each of these alternatives was compared with the requirements outlined by the RMTO, and
    the analysis disclosed that of these four alternatives, the consolidation of component systems met
    all of these requirements.

    Once it was determined that the consolidation of component systems would best meet the
    department’s needs, the RMTO performed a second analysis to identify which internal systems
    could best be matched with internal DHS components. In this analysis the RMTO evaluated five
    systems: (1) FFMS—in use by the Immigrations and Customs Enforcement agency, (2) OFF—in
    use by TSA, (3) SAP—in use by the Customs and Border Protection, (4) IFMIS—in use by FEMA
    and (5) Momentum—in use by the Federal Law Enforcement Training Center. DHS determined
    that using two service providers would be the best benefit for the department because this option
    allowed DHS to leverage current investments already in place.

    Generally, the RMTO’s internal analyses provide adequate support for its decision to use two
    service providers in the initial stages of its financial systems consolidation strategy. However, its
    decision to exclude potential external service providers, such as other federal departments, is not
    supported by any documented analysis, and thus is not justified and should be revisited. A
    complete evaluation of potential service providers can help ensure that DHS is implementing the
    best system to support the processing of financial transactions and ultimately help DHS receive an
    unqualified opinion on its financial statements.

    Change Control Issues Exist with One of the Proposed Solutions

    The RMTO does not have a change control plan in place for the TASC program. As required by
    the DHS Sensitive Systems Policy Directive 4300A, DHS is required to prepare configuration
    management plans for all IT systems and establish, implement, and enforce configuration
    management controls as set forth by the configuration management plan. 6 Additionally, DHS’
    draft System Lifecycle Guide requires that each IT project have a configuration plan, which

6
 DHS Sensitive Systems Security Policy 4300.A, version 5.5, Information Technology Security Program,
September 2007.
                        Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                         5
    identifies the configuration management policy, procedures, structures, and roles/responsibilities to
    be used in executing configuration management. This plan should also assess the impact of
    change, define the Change Control Board, and identify the processes used by the Change Control
    Board in evaluating and approving changes to the system. Additionally, OMB Memorandum 97-
    16, Information Technology Architectures, requires configuration management and control
    processes as well as quality software engineering processes be implemented to maintain
    compliance with the architecture. 7 Specifically, this memorandum requires configuration changes
    to be tested and validated prior to acceptance for operational use across the architecture. The
    RMTO is finalizing a governance document and change control plan that will outline the process
    for system changes for the financial system once the Oracle baseline is moved to the DHS data
    center in Stennis, Mississippi.

    The National Institute of Standards and Technology, Special Publication 800-53, states that
    configuration change control involves the systematic proposal, justification, test/evaluation,
    review, and disposition of proposed changes. 8 The external financial statement auditors reported a
    lack of approvals for the initiation, testing, and final approval of regular and emergency system
    changes. The external auditors also found that the Coast Guard’s Finance Center in Chesapeake,
    Virginia, developed its own process to create and implement changes through the use of scripts.
    These scripts are used to increase the functionality of the system and fix data that are not properly
    processed in Coast Guard and TSA financial systems. Some of these scripts were developed to
    correct current software problems that have been awaiting development through the formal change
    control process.

    The presence of these scripts indicates that controls are not properly designed and that the integrity
    of TSA and Coast Guard financial data can be compromised. These scripts may cause
    unsupported adjustments to Coast Guard and TSA financial data that ultimately affect multiple
    accounts and financial statement line items. In addition, because these scripts are unsupported,
    there is the potential that they may not be considered when future system modifications and
    interfaces are developed for these systems. This could lead to more transaction processing errors
    that could result in the misstatement of Coast Guard, TSA, and DHS financial statements. The
    external auditors have indicated that these scripts could lead to a potential scope limitation for the
    financial statement audit.

    An RMTO official said that the RMTO would look into the scripting problem with the TSA Oracle
    Financial system. In addition, this official noted that while there will always be some scripts run
    with any system chosen, the RMTO nonetheless needs to research the scripts that are currently run
    to determine what procedures they perform and the effect of these procedures on TSA’s financial
    data.




7
 Office of Management and Budget Memorandum 97-16, Information Technology Architectures, June 18, 

1997. 

8
 National Institute of Standards and Technology, Special Publications 800-53, revision 2 (Public 

Draft), Recommended Security Controls for Federal Information Systems, November 2007. 

                        Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                         6
Impact of April 15, 2008, Court Decision

After we issued our draft report, the United States Court of Federal Claims issued a ruling in the
bid protest case of Savantage Financial Services, Inc. vs. United States. In its decision, the court
ruled that DHS’ decision to use Oracle and SAP financial software systems via “Brand Name
Justification” document is an improper sole source procurement in violation of the Competition in
Contracting Act. The court rejected DHS’ argument that its solicitation was not a procurement,
but a task order under an existing contract. Further, the court determined that the DHS’ sole
source procurement decision was arbitrary and capricious: there did not appear to be a reasonable
basis for DHS’ decision, the contracting officer abused her discretion, and the decision violated
applicable law. The court enjoined DHS from proceeding with the solicitation until DHS conducts
a competitive procurement in accordance with the law to select financial management systems
application software.

In response to this decision, RMTO is revisiting its financial systems consolidation strategy.

Recommendations
We recommend that the DHS Chief Financial Officer direct the RMTO to:
   •	 Recommendation #1: Conduct a full evaluation of financial service providers available in
       the federal government, including OMB’s shared service providers, to determine if any of
       these systems can meet DHS’ financial management needs more efficiently.
   •	 Recommendation #2: Identify all scripts being used at the Coast Guard and TSA and
       analyze them to determine their effect on financial transactions, as well as their effect on
       DHS’ financial statements.
   •	 Recommendation #3: Correct the scripts before migrating any DHS components to the
       new TSA based DHS financial system.

Management Comments and OIG Analysis
We obtained written comments on a draft of this report from the DHS CFO. We have included a
copy of the comments in their entirety at Appendix A.

In the comments, the CFO concurred with all of the findings and recommendations of our report.
In addition to providing formal responses to the three recommendations, the CFO and the RMTO
provided us with technical clarification on some statements in the report.

In response, the CFO concurred with Recommendation #1; however, the response does not
adequately address our recommendation. The CFO’s response states that the RMTO will look at
external providers who can help DHS implement the current TSA baseline approach. This is not
the intent of our recommendation. The TSA baseline was selected by DHS without an analysis of
financial systems external to DHS. The intent of our recommendation is for the CFO to review
external agency financial systems to see if these systems are more efficient and cost effective to
DHS before moving forward with the TSA baseline approach.

Recommendation # 1 is considered unresolved and open.
                   Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                    7
In response to recommendation # 2, the CFO stated that the RMTO has identified the scripts that
affect financial transactions currently in use at the Coast Guard and the TSA. The CFO and
RMTO have identified a total of 60 scripts, and in 20 cases the underlying issues have been
corrected and the scripts have been eliminated. Ten additional scripts have been corrected and are
undergoing government acceptance testing, and 30 remaining scripts still need to be fixed. Once
the RMTO has successfully contracted a Solutions Architect, the RMTO, along with the contractor
will identify the impact area of each script, its materiality, and assign it a priority.

In response to recommendation #3, the CFO outlined various efforts to correct scripts before
migrating any DHS components to the new TSA based financial system. The CFO and RMTO
will ensure that scripts are eliminated before any components go to the new system. Project plans
will be available to oversee and monitor corrective action activities.

Recommendations #2 and #3 are considered to be resolved but open pending verification of
planned action.

******************

This review is based on analysis of applicable documentation and interviews with personnel and
officials of relevant agencies and institutions. We conducted our audit from August 2007 to
January 2008 under the authority of the Inspector General Act of 1978, as amended, and according
to generally accepted government audit standards.




                   Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                    8
Appendix A: Management Response




                 Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                  9

Appendix A: Management Response




                 Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                  10

Appendix A: Management Response




                 Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                  11

Appendix A: Management Response




                 Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                  12

Appendix B: Major Contributors



                   Frank Deffer, Assistant Inspector General, Department of Homeland Security,
                   Information Technology Audits

                   Sharon Huiswoud, Director, Department of Homeland Security, Information
                   Technology Audits

                   John McCoy, Director, Department of Homeland Security, Financial
                   Management Audits

                   Meghan Sanborn, Senior Program Analyst, Department of Homeland
                   Security, Information Technology Audits

                   Anthony Nicholson, Senior IT Auditor, Department of Homeland Security,
                   Information Technology Audits

                   Matthew Worner, Referencer, Department of Homeland Security, Information
                   Technology Audits




                  Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                   13
Appendix C: Distribution List


                    Department of Homeland Security

                    Secretary
                    Deputy Secretary
                    Chief of Staff
                    Deputy Chief of Staff
                    General Counsel
                    Executive Secretary
                    Director, GAO/OIG Liaison Office
                    Assistant Secretary for Policy
                    Assistant Secretary for Legislative Affairs
                    Assistant Secretary for Public Affairs
                    Under Secretary for Management
                    Director, GAO/OIG Liaison
                    Chief Information Officer

                    Office of Management and Budget

                    Chief, Homeland Security Branch
                    DHS OIG Budget Examiner

                    Congress

                    Congressional Oversight and Appropriations Committees, as appropriate




                   Letter Report: Review of DHS’ Financial Systems Consolidation Project

                                                    14
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG) at
(202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.
